No. ________
In the

Supreme Court of the United States
145 FISK, LLC,
Petitioner
v.
F. WILLIAM NICKLAS.
Respondent
CERTIFICATE OF SERVICE
I hereby certify that on this 26th day of April 2021, I electronically filed the
foregoing Petition for Writ of Certiorari and Certificate of Compliance with Clerk of
the Court for the United States Supreme Court. I further certify that on this day,
and pursuant to the Court’s April 15, 2020 Order, I submitted one copy of the
aforementioned documents to the Clerk of the Court for the United States Supreme
Court via U.S. Mail. I further certify that on this day, and pursuant to the Court’s
April 15, 2020, I served one copy of the foregoing via electronic email upon:
Daniel Richard Whiston
Kaylea Heneghan Weiler
SmithAmundsen LLC
3815 E. Main Street, Suite A1
St. Charles, IL 60174
(630) 587-7910
dwhiston@salawus.com
kweiler@salawus.com
Counsel for Respondent

Respectfully submitted,
/s/ Jonathan R. Marko
Counsel of Record
Marko Law
1300 Broadway St., Fifth floor
Detroit, Michigan 48226
jon@markolaw.com
(313) 777-7529
Counsel for Petitioner

